BOYDEN GRAY & ASSOCIATES PLLC
801 17TH STREET, NW, SUITE 350
WASHINGTON, DC 20006
(202) 955-0620

August 26, 2019
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Valent v. Saul, Commissioner of Social Security, No. 19-221 (U.S.).

Dear Mr. Harris:
As provided by Rule 37.2(a), Petitioner Michelle Valent grants blanket consent
to the filing of briefs amicus curiae by any person or entity, provided that they are
filed within the time allowed by the rules of this Court. This consent applies
without regard to the position taken or the party being supported by the brief.
Sincerely,

/s/Adam R.F. Gustafson
BOYDEN GRAY & ASSOCIATES PLLC
801 17th Street NW, Suite 350
Washington, DC 20006
202-955-0620
gustafson@boydengrayassociates.com
Counsel for Petitioner Michelle Valent
cc: Noel Francisco, Solicitor General of the United States.

